<html>
<title> - [H.A.S.C. No. 114-34] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2016 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                        [H.A.S.C. No. 114-34]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

        MEMBER DAY--NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR

        THE FISCAL YEAR 2016 NATIONAL DEFENSE AUTHORIZATION ACT

                               __________

                              HEARING HELD

                             APRIL 14, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-745                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


































                                    
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                        Spencer Johnson, Counsel
                         Britton Burkett, Clerk





























                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Blackburn, Hon. Marsha, a Representative from Tennessee..........     1
Blumenauer, Hon. Earl, a Representative from Oregon..............    19
Bost, Hon. Mike, a Representative from Illinois..................    12
Chabot, Hon. Steve, a Representative from Ohio...................     9
Curbelo, Hon. Carlos, a Representative from Florida..............    15
Ellmers, Hon. Renee L., a Representative from North Carolina.....    22
Fitzpatrick, Hon. Michael G., a Representative from Pennsylvania.    13
Gohmert, Hon. Louie, a Representative from Texas.................    21
Hardy, Hon. Cresent, a Representative from Nevada................     4
Hurd, Hon. Will, a Representative from Texas.....................    25
Lawrence, Hon. Brenda L., a Representative from Michigan.........    16
Ross, Hon. Dennis A., a Representative from Florida..............    18
Rothfus, Hon. Keith J., a Representative from Pennsylvania.......     8
Wagner, Hon. Ann, a Representative from Missouri.................     3
Young, Hon. Don, a Representative from Alaska....................     6

                                APPENDIX

Prepared Statements:

    Blackburn, Hon. Marsha.......................................    47
    Blumenauer, Hon. Earl........................................    35
    Bost, Hon. Mike..............................................    79
    Chabot, Hon. Steve...........................................    39
    Curbelo, Hon. Carlos.........................................    81
    Ellmers, Hon. Renee L........................................    54
    Fitzpatrick, Hon. Michael G..................................    52
    Gohmert, Hon. Louie..........................................    49
    Hanna, Hon. Richard L., a Representative from New York.......    58
    Hardy, Hon. Cresent..........................................    83
    Hurd, Hon. Will..............................................    87
    Katko, Hon. John, a Representative from New York.............    91
    Lawrence, Hon. Brenda L......................................    93
    Luetkemeyer, Hon. Blaine, a Representative from Missouri.....    51
    McKinley, Hon. David B., a Representative from West Virginia.    70
    Ross, Hon. Dennis A..........................................    72
    Rothfus, Hon. Keith J........................................    74
    Sarbanes, Hon. John P., a Representative from Maryland.......    50
    Wagner, Hon. Ann.............................................    77
    Young, Hon. Don..............................................    31

Documents Submitted for the Record:

    Hon. David B. McKinley Supplemental Documents................    99

  MEMBER DAY--NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE FISCAL 
              YEAR 2016 NATIONAL DEFENSE AUTHORIZATION ACT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, April 14, 2015.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2212, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The distinguished acting ranking member, Mrs. Davis, is on 
her way, but I understand it's fine for us to go ahead.
    The House Armed Services Committee meets today to receive 
testimony from Members of Congress on their national security 
priorities for the fiscal year 2016 National Defense 
Authorization Act.
    Just a quick note about format today. In consultation with 
the ranking member, we will depart from our regular questioning 
process. Each witness will have 4 minutes to testify.
    Members of the committee who then want to ask clarifying 
questions will raise their hand or make their interest known to 
the staff and they will be yielded 2 minutes each, for a 
maximum of 4 minutes for each witness. This will ensure that we 
can get through all of our witnesses today. And as this hearing 
is intended to be primarily a listening session, it is not my 
intent to engage in extended debate on various issues.
    We look forward to today's testimony and certainly thank 
our distinguished colleagues for their advocacy on behalf of 
our troops and our national security.
    First up today is the gentlelady from Tennessee, Mrs. 
Blackburn, who is recognized for 4 minutes.

   STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE FROM 
                           TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman and members of the 
committee. I want to thank all of you for allowing Members of 
the House to come and testify on these issues of importance.
    As many of you know, I represent the Seventh Congressional 
District of Tennessee, which is home to the brave men and women 
of Fort Campbell. Yes. And Ms. Wagner is going to cheer because 
her son is one of those brave men. Fort Campbell is home to the 
storied 101st Airborne, the 5th Division and the Army's 160th 
Special Ops Aviation Regiment. Nearly 1,900 officers and 26,500 
enlisted personnel call Fort Campbell home.
    Like many installations across the country, Fort Campbell 
is facing reductions that will have an impact on military 
readiness programs. I was pleased to work with this committee 
last year in support of the Army Flying Hours Program.
    This vital program provides aviation training resources for 
individual crew members and units according to approved 
aviation training strategies. In addition, it also provides 
individual and collective proficiency in support of ongoing 
combat and non-combat air operations.
    For aviation units like the 101st, this training is not 
only vital to mission success, but to the safety of our 
personnel. Due to Army budget restraints, Army aviators will 
only be provided with 9.3 hours of training per crew per month. 
This is below the recommended increase to 11.3 hours of 
training per crew per month.
    Currently, the Active Army combat aviation brigades have a 
$55 million shortfall in meeting 100 percent of their critical 
requirements. Without the necessary funding, home station 
training opportunities will not be available to achieve optimal 
combat readiness.
    I ask the members of this committee to once again pay close 
attention to restoring the Army Flying Hours Program to its 
full capacity in fiscal year 2016.
    I would also like to bring to this committee's attention 
the further reduction of our Armed Forces and how this will 
hamstring our ability to meet the challenges and the threats 
that we see in an increasingly destabilized world.
    As America withdraws from the international community, 
countries like Russia are becoming increasingly brazen. We see 
it in the annexation of Crimea by Russian-backed separatists, 
civil war in Yemen and Syria, and China's military buildup.
    As the discord continues to grow around the world, the U.S. 
must have the personnel and the capabilities to respond. If 
Fort Campbell is required to reduce its Active Duty personnel 
from 26,500 to 16,000, I worry about our ability to defend 
ourselves from threats and to project power internationally.
    Fort Campbell is already one of the most heavily deployed 
bases in the country. If it suffers a troop reduction, it is 
going to be felt, and it will matter to our Nation. When Ebola 
was spreading through West African countries, it was 700 
soldiers from the 101st Airborne Division at Campbell that were 
deployed to build medical facilities and contain the outbreak.
    In the spring, 700 more soldiers from the 101st will be 
deployed to Afghanistan. Soldiers from Fort Campbell are always 
tapped with response to threats made against our security 
around the globe.
    Thank you for allowing me to testify this morning. I stand 
ready to work with this committee on strengthening programs and 
reviewing processes that are vital to our Nation's defense.
    I yield back my time.
    [The prepared statement of Mrs. Blackburn can be found in 
the Appendix on page 47.]
    The Chairman. I thank the gentlelady.
    Are there any questions of Ms. Blackburn?
    If not, thank you. Appreciate your comments and appreciate 
your input.
    Next we will have the gentlelady from Missouri, Ms. Wagner, 
to testify.
    Thank you for being with us this morning. The gentlelady is 
recognized for 4 minutes.

  STATEMENT OF HON. ANN WAGNER, A REPRESENTATIVE FROM MISSOURI

    Mrs. Wagner. Thank you. Thank you very much.
    Members of the committee, I want to first extend my 
appreciation for the work that you do. As a proud mother of a 
son who is a West Point graduate and does presently serve in 
the United States Army [inaudible--mike not on] 101st 
Airborne's captain's bars this month, I should say proudly. And 
I represent thousands of constituents that wear the uniform.
    I know firsthand the importance of this committee's work 
for our national security as you begin to debate our defense 
priorities for the coming fiscal year. Thank you for the 
opportunity to talk about a key defense priority for the United 
States Navy and our Nation, the F/A-18 Super Hornet.
    The past 2 years I have become very familiar with the 
Navy's tactical aviation capabilities. Last year this committee 
responded to the Navy's requirement for more electronic attack 
capabilities by providing five EA-18G Growlers in the fiscal 
year 2015 National Defense Authorization Act [NDAA].
    Congress then added 10 additional Growlers on top of that 
during the appropriations process, and those aircraft will 
provide a warfighting capability that no adversary can match. 
Growlers will keep our Navy equipped to overcome enemies today 
and in the future in all threat environments. For that, I would 
like to say once again, thank you very much.
    Today I am here to support adding F/A-18 Super Hornet 
aircraft to the fiscal year 2016 NDAA. As you know, the Navy 
submitted an unfunded requirement for 12 F/A-18F model 
aircraft. In testimony, the Chief of Naval Operations, Admiral 
Jonathan Greenert, stated that the Navy has a ``Super Hornet 
shortfall,'' in his words, of at least 2 or 3 squadrons, 
equivalent of some 24 to 36 aircraft.
    As you all are well aware, an aging fleet of legacy 
aircraft, the delayed operational deployment of the F-35 
program, and the higher-than-anticipated utilization of Super 
Hornets in combat are contributing to this shortfall. To this 
last point, the Super Hornet is truly the workhorse of naval 
combat operations against the Islamic State of Iraq and the 
Levant.
    By some estimates, the Super Hornets today are flying at 
four times the anticipated rate. It is an absolutely critically 
in demand weapon against our enemies. To exacerbate the 
shortfall challenge, the Navy has lost 15 Super Hornets and 
Hornets over the past 5 years to battle or training losses, 
aircraft that have not been replaced by the Navy or Congress.
    The strike fighter shortfall identified in the unfunded 
requirement request is not a new issue to the Navy. We all wish 
that the President's budget request included additional F/A-18 
Super Hornets, and we all expect the Navy to address the total 
extent of the shortfall in subsequent budgets.
    However, without aircraft in fiscal year 2016, the F/A-18 
program faces a line closure decision. The F/A-18 manufacturing 
line is the only aircraft production with the ability to build 
operational strike fighters for the Navy today and AEA 
[airborne electronic attack] aircraft for the entire Department 
of Defense. Without it, the Navy could not address its 
shortfall, nor could it add Growlers in the future.
    Recall that there is likely a larger, joint requirement for 
more EA-18G Growlers that is pending further analysis. I would 
not be in front of you today if funding additional aircraft 
were not so vital to our warfighting capabilities. Adding 
aircraft and keeping the F/A-18 line alive is the right thing 
to do to keep our military personnel safe and to keep our 
country and allies safe.
    I have provided a copy of the House letter signed by myself 
and my colleagues requesting additional aircraft. These are 
Members who have stood by the committee to support defense 
authorization. I have also added a copy of the unfunded 
requirement, highlighting the Navy's request for 12 aircraft. I 
ask that both of these documents, Mr. Chairman, be submitted as 
part of my written testimony.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Without objection.
    Mrs. Wagner. In closing, I urge you to add 12 F/A-18 
aircraft to ensure the Navy can protect our Nation now and in 
decades to come. I look forward to working with this committee 
and supporting the final NDAA legislation as it moves through 
the House of Representatives. I stand at your service and thank 
you so very much for yours.
    [The prepared statement of Mrs. Wagner can be found in the 
Appendix on page 77.]
    The Chairman. Thank you.
    Are there any questions for Ms. Wagner?
    If not, thank you. We appreciate you being with us this 
morning.
    Next we turn to the gentleman from Nevada, Mr. Hardy.
    Thank you for joining us. And you are recognized for 4 
minutes.

 STATEMENT OF HON. CRESENT HARDY, A REPRESENTATIVE FROM NEVADA

    Mr. Hardy. Thank you, Mr. Chairman. Thank you for the 
opportunity to be here. I would like to thank Ranking Member 
Smith and, also, the members of the committee. I appreciate the 
opportunity to testify before you on the National Defense 
Authorization Act for fiscal year 2016.
    There are 627 companies in Nevada's Fourth Congressional 
District registered to do business with the government, and 459 
of those are small businesses. Although they received over $200 
million in Federal contracts last year and the options of the 
contract are in the billions, on behalf of those businesses and 
the businesses not yet pursuing Federal work, I want to thank 
you for your work on this permanent reform--or procurement 
reform.
    I especially want to thank the chairman and the ranking 
member for including much-needed reforms on the non-
manufacturer rule, H.R. 1597, the Agile Acquisition to Retain 
Technological Edge Act of 2015. I also introduced legislation 
on this issue because the issue could cripple the participation 
of small service contractors in the Federal marketplace.
    As a former small-business owner, I know the importance of 
clarification while trying to procure a contract by meeting the 
provisions required, which is why this legislation is very 
important to small contractors.
    Let me first explain what the non-manufacturer rule is, 
since it's perhaps the most poorly named rule there is out 
there. The NMR exists to prevent fraud when the government is 
trying to buy manufactured goods like ball bearings or 
furniture.
    If a contract for office chairs is set aside so that only 
small businesses can compete, the last thing the government 
wants is a winning small business buying chairs from a large 
business, marking them up and then delivering them.
    That's why the NMR says that, in the case of contract for 
goods that is restricted to small businesses, the winning 
company must either make the goods itself or buy them from 
another small manufacturer. Where there are some expectations 
in the cases, there are no small manufacturers. This really is 
the truth in advertising provisions that works pretty well.
    Unfortunately, the Federal courts have started applying the 
NMR to contracts for services so that a small builder would now 
need to either manufacture all the building supplies or buy 
them from another small business. Likewise, a small company 
customizing software would now be required to manufacture the 
underlying software.
    This application makes no sense. We already have separate 
rules for service contractors that make sure that they aren't 
subcontracting all the work to large businesses. The government 
gets no benefit from putting additional supply chain burdens on 
small service contractors.
    But this restriction will limit the amount of competition 
for the $267 billion in services the government purchased last 
year. Therefore, the Small Business Administration agrees that 
we need to fix the statute to make it clear that the NMR only 
applies to contracts for goods.
    For these reasons, I strongly encourage the committee to 
include section 504, H.R. 1597, in the fiscal year 2016 
National Defense Authorization Act.
    I would also like to lend my support to the testimony of 
Chairman Chabot and encourage you to include the other small-
business contracting provisions in H.R. 1597 and H.R. 1481, the 
Small Contractors Improve Competition Act of 2016.
    Thank you. And I stand ready for questions.
    [The prepared statement of Mr. Hardy can be found in the 
Appendix on page 83.]
    The Chairman. Thank you.
    Are there any questions of Mr. Hardy?
    Thank you. We appreciate you being with us and appreciate 
your input.
    Next, Chairman Young.
    Thank you for being with us this morning. The gentleman is 
recognized for 4 minutes.

   STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE FROM ALASKA

    Mr. Young. Thank you, Mr. Chairman. I will tell you I am 
not a happy individual right now. I was in traffic an hour and 
a half. I am going to try to smile right now, I will tell you 
that right now.
    Mr. Chairman and ranking member and my distinguished 
colleagues, I am here to talk about the State of Alaska and the 
mission. According to Air Force ``Billy'' Mitchell way back, 
many, many years ago, he said, ``He who holds Alaska holds the 
world. I think Alaska is the most important strategic place in 
the world.''
    It is true what General Mitchell said in 1933. That was the 
year I was born, by the way. Alaska offers unparalleled 
training areas, including Joint Pacific Alaska Range Complex. 
While ranges in the Lower 48 are parts of States, JPARC's 
training areas are the size of the States.
    To give you an idea, 65,000 square miles of unencumbered 
airspace, that's the size of Florida; 2,490 square miles of 
land space, the size of Delaware; 42,000 square nautical miles 
of surface, subsurface, and overlaying airspace over the Gulf 
of Alaska, the size of Virginia.
    More than that, support for our service members, their 
families, and veterans runs deep in Alaska. Alaska's Active 
Duty military personnel, combined with our Vietnam population, 
our veteran population, equates to more than 15 percent of the 
State's entire population.
    We, as Alaskans, pride ourselves in the strong mutually 
beneficial relationship we have with our Alaska-based military 
members. Many of those who have been going overseas actually 
deployed from Alaska.
    As you continue in the fiscal year 2016 NDAA process, I 
would like to highlight several specific funding and language 
requests that are important to Alaska and the United States 
mission.
    First, I would like to request the committee include a 
sense of Congress regarding the Air Force's F-35 basing in the 
Pacific. In August of 2014, Eielson Air Force Base in Alaska 
was named as the preferred alternative for Pacific F-35 basing. 
Regardless, it is important to continue to highlight Congress's 
desire to see the Air Force consider Alaska's military value as 
part of a strategic basing process.
    Pacific F-35s would be based at a location that has the 
ability to host fighter-based bilateral and multilateral 
training opportunities, has significant airspace and ranges to 
meet its air training requirements, has existing facilities to 
support personnel, operations, and logistical needs, has 
limited encroachment from outside, and minimize the overall 
construction [and] operational cost. Eielson offers the Air 
Force these capabilities.
    Second, I would like to speak for a moment on the Alaskan--
Native American/Hawaiian Small Business Administration 8(a) 
program. Mr. Chairman, we talked about this last year. This is 
a new section.
    Section 811 has a large negative effect on Native Americans 
and the Hawaiian community-based contracting organizations 
participating in SBA 8(a) programs. And I will say personally I 
believe this program has worked well for the government, for 
the military, and the taxpayer.
    I also would support a no-cost land--this is a very small 
thing, Mr. Chairman--a no-cost land transfer from the Air Force 
to the City of Galena, Alaska. The western Alaskan town of 
Galena was hit by a devastating flood in the spring of 2013. It 
was really a bad, bad flood. Federal and State disasters were 
declared and more than $75 million--$56 million Federal and $19 
million State--has been spent to recover this city.
    While Galena has made great strides to recover from this 
terrible disaster, the residents are still vulnerable to the 
catastrophic floods due to the location of the Yukon River 
flood plain. To eliminate the flood threat, the City of Galena 
would like to move to higher ground.
    They have done surveys and have found there is an optional 
area above the flood plain in the former home of the Campion 
Air Force Radar Station. This area has been actually abandoned. 
It is still maintained by the Air Force. But, very frankly, 
they don't have any objection if we could transfer the City of 
Galena. It costs nothing to the taxpayers. It will save the 
city and actually take land out of the Air Force's hands.
    I also request funding authorizing $10 million for State 
Sponsored Aerospace Facilities, which have been funded before; 
a missile defense agency and ground-based missile defense and 
sensors--that's a PB-16--an F-35 procurement RDT&E [research, 
development, test, and evaluation]; Alaska military 
construction, including projects at Fort Greely and Eielson Air 
Force Base; the Civil Military including the National Guard 
Youth ChalleNGe and Innovative Readiness Training programs; 
language for report of efforts to reduce high energy costs of 
military installations; language to expand space-available 
travel for gray area retirees. Remember, we have a lot of 
veterans and surviving spouses and airplanes are available.
    Again, Mr. Chairman, I thank you and the ranking member and 
the members of the committee. I would like to suggest, Mr. 
Chairman--and I ask you this personally and the committee--to 
come to Alaska. This is a fine military area. Has been. Always 
has been. Will continue to be.
    It is the key to our strategic mission as far as military 
goes. Many of the bases we have today in the Lower 48 have 
really no contributing factor other than just being political.
    I say this respectfully. If want to solve a mission, you 
can get anywhere in the world quicker from Alaska than any 
other base in the United States. Now, you might not say that 
about Guam or the Philippines, but it is an area.
    Mr. Chairman, with that, I thank you. And I will answer any 
questions.
    [The prepared statement of Mr. Young can be found in the 
Appendix at page 31.]
    The Chairman. Thank you.
    I know that there is a group of our members who are 
planning on going to Alaska before too long on one of their 
specific trips.
    So any member have questions of Mr. Young?
    Thank you, sir. Appreciate you being here.
    Mr. Young. On time, by the way.
    The Chairman. Just don't hold this committee responsible 
for traffic.
    The committee is pleased to welcome the gentleman from 
Pennsylvania, Mr. Rothfus, who is recognized for 4 minutes.

   STATEMENT OF HON. KEITH J. ROTHFUS, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Rothfus. Thank you, Mr. Chairman. And thank you, 
members of the committee, for holding this hearing today and 
for receiving my testimony on the National Defense 
Authorization Act for fiscal year 2016.
    This morning I would like to focus my remarks on the Army's 
Aviation Restructuring Initiative [ARI]. As you know, this 
policy will result in the transfer of the National Guard Apache 
helicopters to their Active Component. Army officials have 
stated that this restructuring is necessary to generate savings 
and make the remaining aviation fleet more affordable. I have 
long opposed this plan and for the second year in a row asked, 
Mr. Chairman: Savings at what cost?
    Since September 11, 2001, the National Guard has repeatedly 
risen to the occasion. They have answered the call and fought 
bravely in Iraq and Afghanistan. At the height of these wars, 
nearly 50 percent of the Army's total force was a mix of 
reservists and members of the National Guard.
    The Pennsylvania National Guard alone contributed more than 
42,000 individual deployments. They have fought side by side 
with the Active Component, all while continuing to achieve 
their important mission here at home.
    ARI will have devastating impacts on all that the National 
Guard has achieved. By stripping the National Guard of its 
Apache helicopters, the Army is ensuring that the National 
Guard will be less combat-ready and less able to provide 
operational depth.
    It will also deprive our Nation of an operational reserve 
for these aircraft, which is essential to the retention and 
management of talented air crews. This represents a fundamental 
shift in the nature and the role of the National Guard. It runs 
counter to the wisdom and preference of many Members of 
Congress and their constituents.
    This issue is important in Pennsylvania and to the 1-104th 
Attack Reconnaissance Battalion in Johnstown. These highly 
trained airmen and crew played an invaluable aerial support 
role in Afghanistan, where they flew their Apache helicopters 
and fought alongside the Active Component.
    The Army now proposes to replace these Apaches with a 
smaller number of Black Hawks. This reduction will deprive the 
National Guard of both highly trained personal and equipment. 
It will result in the National Guard being less effective, less 
combat-capable, and less able to heed the call to defend this 
Nation both at home and abroad.
    I offered similar criticism of AIR last year and joined my 
colleagues in urging this committee to create the National 
Commission on the Future of the Army. I also advocated that 
there should be no transfers or divestment of any Army 
aircraft, including Apaches, until after the Commission has had 
sufficient opportunity to examine ARI.
    I applauded the committee for including those important 
provisions in the fiscal year 2015 NDAA, but I was disappointed 
to see that, at the insistence of the Senate, the legislation 
also contained a glaring exception that allowed the Army to 
transfer up to 48 Apaches prior to the Commission releasing its 
finding and recommendations.
    The Commission was established to offer a deliberate 
approach to addressing force structure issues like ARI. So how 
does it make any sense to permit the Army to transfer these 
Apaches before the Commission has done its work? The answer is 
simple: It doesn't. And we need to put a stop to this before it 
is too late.
    Even National Guard Bureau Chief General Frank Grass admits 
that, once these transfers begin, it will be all but impossible 
to reverse them. For that reason, I respectfully request that 
the committee include a simple provision in this year's NDAA 
that prohibits the transfer of any Apaches until the end of 
fiscal year 2016.
    This will provide sufficient time for the Commission to 
release its report, for the Army and the National Guard to 
respond, and for the Congress to make a reasoned and well-
informed decision.
    I recognize that this committee will be forced to make many 
difficult decisions over the next month, but this isn't one of 
them. Providing a temporary freeze on the transfer of Apaches 
just makes sense and will ensure that irreparable harm is not 
done to our National Guard without due deliberation.
    Thank you for the opportunity to address you this morning. 
And I am happy to answer any questions that you may I have.
    [The prepared statement of Mr. Rothfus can be found in the 
Appendix on page 74.]
    The Chairman. I thank the gentleman.
    Are there any questions?
    Thank you. We appreciate your being here. Obviously, there 
are a number of members who have expressed interest in this, 
and we appreciate your input.
    Mr. Rothfus. Thank you.
    The Chairman. Next we will turn to chairman of the Small 
Business Committee, Mr. Chabot.
    Thanks for being here, Mr. Chairman. And you are recognized 
for 4 minutes.

   STATEMENT OF HON. STEVE CHABOT, A REPRESENTATIVE FROM OHIO

    Mr. Chabot. Good morning, Chairman Thornberry and the 
ranking member and other members of the committee. I appreciate 
the opportunity to testify before you this morning on the 
National Defense Authorization Act for fiscal year 2016.
    Let me begin by thanking the committee for its 
collaboration with the Small Business Committee. In my 19 years 
on the Small Business Committee, I have seen the relationship 
between our two committees grow, and we certainly intend to 
continue that tradition. And so thank you for cooperation of 
all the members of this committee with the Small Business 
Committee.
    I also want to compliment the chairman and the ranking 
member on H.R. 1597, the Agile Acquisition to Retain 
Technological Edge Act. The bill has many provisions that will 
help small businesses, which I discuss in my written testimony.
    But I will be brief in my oral testimony this morning. And 
I actually have a hearing in Judiciary that I have to get back 
to on immigration, and we all know that that is a very 
important issue facing our Nation today. I hope to see those 
provisions incorporated in this year's NDAA.
    I am here because I know there are several commonsense 
reforms that we can work together on to see that small 
businesses can compete fairly for Federal contracts. The Small 
Business Committee has held three hearings on this subject over 
the past few months, and I would like to share with you some of 
the findings of those hearings.
    First, the good news. The government has met its goals 
regarding contract dollars going to small businesses. Early 
indications are that we met the goal again last year as well. 
So that is good news. The percentage of dollars awarded to 
small businesses is a good measure of success, but it is not 
the only measure.
    Here is the bad news. Within the last 2 years, we have lost 
over 25 percent of the small business firms registered to do 
business with the Federal Government. Within the Department of 
Defense, the number of small-business contract actions fell by 
almost 70 percent, but the size of the average individual 
small-business contract increased by nearly 290 percent.
    We have a declining small-business participation rate, 
which could threaten the core principle of competition. And, as 
we all know, it is basic supply and demand. The more 
competition you have, the better chance you have for 
restraining prices from going up.
    To address these problems, we have in the committee 
introduced H.R. 1481, the Small Contractors Improve Competition 
Act. This bill would require that the Small Business 
Administration place a greater emphasis on small-business 
subcontracting and participation rates.
    It would also make it easier for small businesses to joint-
venture and team up and crack down on several contracting 
abuses. It is a good first step to helping our industrial base. 
And I have provided more detail in my written statement.
    I'd ask the committee to incorporate these provisions, plus 
provisions in H.R. 838 and H.R. 1666, into this year's NDAA. 
Again, the details of these provisions are in my written 
testimony, but I won't go into great detail at this time 
because I know the committee has time restraints here.
    Our Nation demands a vital small-business industrial base. 
It is fundamental to the health of our Nation as whole. I look 
forward to working with this committee to ensure that small 
businesses continue to provide the Department of Defense and 
the Federal Government with innovative and competitive 
solutions to support critical programs.
    And I want to again thank you for hearing our testimony 
this morning.
    The Chairman. Thank the gentleman.
    Without objection, your full written statement will be made 
part of the record.
    [The prepared statement of Mr. Chabot can be found in the 
Appendix on page 39.]
    The Chairman. And let me just say I, too, appreciate the 
strong collaborative relationship we have between our two 
committees on so many issues.
    Mr. Knight, you are recognized for 2 minutes.
    Mr. Knight. Thank you, Mr. Chairman.
    I would like to thank Chairman Chabot for his testimony and 
add my support to his request that these provisions be included 
in this year's NDAA.
    H.R. 1481 includes language I introduced, H.R. 1390, the 
Small Business Joint Venturing Act of 2015, which he referred 
to.
    We all know how important competition is in the Federal 
procurement system. Therefore, we should be encouraging 
qualified small-business teams and joint venture to compete for 
Federal contracts, not allowing agencies to put roadblocks in 
their way.
    I look forward to working with both committees to push this 
package of commonsense reforms as we move forward.
    Thank you, Mr. Chair.
    Mr. Chabot. Thank you very much.
    Mr. Chairman, if I could just comment.
    Mr. Knight, I know, has been an extremely valuable member 
of the Small Business Committee already, and I know he has done 
great things on this committee. We are glad to see both 
committees have such a tremendous member.
    The Chairman. Appreciate that.
    Mr. Ashford, did you want to be recognized? Two minutes.
    Mr. Ashford. I don't need 2 minutes. But could you just for 
my edification--because I am relatively new here. I think this 
is a super idea. Could you just go over what were the two bills 
now. And I could find them out myself, but ----
    Mr. Chabot. Yeah. Well, briefly, what they deal with is, 
for example, bundling a lot of the contracts which may, at 
first, appear to be--you know, small businesses involved are 
bundled and they are actually much larger company-involved, and 
you have consolidation issues.
    Those are some of the issues that we are facing, and these 
deal with the details in all the written testimony which we, 
because of time constraints ----
    Mr. Ashford. Right. I don't need to go any further.
    I think this is especially important, at least in our area 
of the country where we have a large military participation. So 
thank you very much.
    Mr. Chabot. Absolutely.
    And, as we know, about 70 percent of the jobs nowadays 
created in the American economy are small businesses. By 
definition, small businesses are companies generally under 500 
employees. So they are not all that small sometimes. But those 
are the jobs of the future.
    Mr. Ashford. And I know we are lacking in time.
    But it was interesting. A couple of weeks ago the New York 
Times had an article about out how startups have decreased 
substantially since 2009 from prior to that. Many of those 
startups are technological types of enterprises that could be 
candidates for this kind of work.
    Mr. Chabot. And that's particularly disturbing. And that's 
one of the things that we had--I don't recall now if our 
committee resulted in the article or the article had something 
to do with our hearing.
    But I know that that is a fact. And it is disturbing. 
Because, historically, we have had more startups than 
businesses that died. And now that's reversed, and we have more 
businesses going out of business than businesses being created. 
And that's dangerous.
    Mr. Ashford. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Chairman, thank you again for being here. We will let 
you get to your other hearing, but we appreciate your 
testimony.
    Mr. Chabot. Thank you, Mr. Chairman.
    The Chairman. Next we have the gentleman from Illinois, Mr. 
Bost.
    Thank you for being here. The gentleman is recognized for 4 
minutes.

  STATEMENT OF HON. MIKE BOST, A REPRESENTATIVE FROM ILLINOIS

    Mr. Bost. Thank you, Chairman Thornberry, and ranking 
member. Thank you for the opportunity to address the committee. 
First off, allow me to summarize my written testimony, if I 
may, for the need for additional F/A-18 strike fighters.
    Mr. Chairman, the Navy is facing a critical shortage of the 
operational strike fighters. The F/A-18 is the Navy's only 
operational strike aircraft. The Super Hornet and its sister 
aircraft, the EA-18G Growler, provide critical strike and 
electronic warfare support in a mission against ISIS [Islamic 
State of Iraq and Syria] and terrorist organizations.
    Increased operational tempos in the war on terror, combined 
with the Navy's other commitments to ensure safe and free 
navigation of the seas, is resulting in an aircraft utilization 
rate that is four times the expected rate of use.
    As a consequence, strike fighters are rapidly approaching 
the end of their active use. In recent testimony, Chief of 
Naval Operations Admiral Greenert stated that the Navy is 
experiencing a serious shortfall of between 24 to 36 Super 
Hornet aircraft. The primary cause of these shortfalls are the 
above-mentioned rate of utilization and issues with the speed 
of repairs to the legacy Hornets at the depots.
    The Navy's inclusion of 12 F/A-18 Super Hornet aircraft in 
their unfunded priority acknowledges these shortfalls. 
Unfortunately, the aircraft production line is at a critical 
juncture. Without congressional action, it may close.
    The inclusion of 12 additional strike fighters in the 
Defense Authorization Act will ensure that the Navy has the 
assets it needs to protect our Nation. It will also protect the 
national security value provided by the St. Louis air defense 
industrial base.
    The F/A-18 Super Hornet and the EA-18G Growler program line 
represents more than 60,000 U.S. jobs, with 800 supplier 
partners in 44 States.
    In closing, prudence requires we keep and maintain the F/A-
18 Super Hornet and the EA-18 Growler production lines. I 
strongly urge the committee to authorize the Navy's request for 
an additional 12 F/A-18 aircraft for the coming fiscal year. 
And, once again, I thank the committee for the opportunity to 
address this matter.
    On a side note, as a U.S. marine who was actually around 
when we first were testing the F-18, I look forward to working 
with any of you to find out and make sure of the importance of 
this and make sure we can put it in.
    Thank you. I would be glad to answer any questions.
    [The prepared statement of Mr. Bost can be found in the 
Appendix on page 79.]
    The Chairman. Great. Thank you, sir.
    Are there any questions for the gentleman from Illinois?
    Thank you. We appreciate your time this morning and 
appreciate your input.
    Next, the gentleman from Pennsylvania, Mr. Fitzpatrick.
    Thanks for being with us. The gentleman is recognized for 4 
minutes.

STATEMENT OF HON. MICHAEL G. FITZPATRICK, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Fitzpatrick. I thank the chairman and the ranking 
member for this opportunity.
    With the continued threat of terrorism to the homeland, 
each of us only has to remember back to the attacks of 
September 11 to comprehend the devastation caused when our 
Nation's airliners were turned into weapons.
    That is why I am asking for the committee's help in 
protecting our skies from terror hijackings by requiring any 
aircraft that participates in the Department of Defense Civil 
Reserve Air Fleet program to secure their cockpits by 
installing secondary barrier doors.
    These secondary barriers are light, inexpensive wire gates 
that protect the flight deck while the cockpit door is open. 
While it is true the cockpit doors have been strengthened in 
light of the terrorist attacks, the preventative measure only 
works when it is closed. What happens when a pilot needs to 
open the door for any reason during the course of a flight?
    This lapse in security can provide an attacker just enough 
time to strike and take control of the plane. In fact, a video 
has surfaced online that shows it takes only 2 seconds for a 
terrorist to breach the cockpit once the door is opened under 
current protocol.
    The recent Germanwings tragedy shows us the danger when 
someone with bad intentions is able to lock themselves behind a 
reinforced door. Unlike the heroic efforts of the passengers of 
United Flight 93 that crashed in my home State of Pennsylvania, 
there is almost nothing the passengers can do to retake the 
aircraft in this very real scenario.
    As a Congress, we are tasked with many responsibilities. 
Chief among them, the protection of our constituents and our 
country. We can no longer ignore this obvious hole in our anti-
terror measures. This Congress must act now to address the 
shortcoming.
    If there is one thing Al Qaeda and ISIS seeks, it is a 
high-profile attack that is cheap for them to execute. Right 
now, for the cost of one trained extremist and a first-class 
ticket, Al Qaeda or ISIS can turn our aircraft into a weapon 
once again. This is our reality.
    Earlier this year ISIS sympathizers were arrested by law 
enforcement in New York City and found to have had plans to 
hijack an aircraft. Last month a passenger on a United Airlines 
flight rushed the cockpit. Three weeks ago the whole world was 
tragically shown the heartwrenching consequences of this danger 
when someone locked the pilot out of the cockpit and 
deliberately crashed Germanwings Flight 5925.
    As pilots will tell you, this is not hard to fix. A 2013 
study found that secondary barriers are very cost-effective, 
require little maintenance, and reduce risk at a modest cost. 
Pilots, flight attendants, and Federal law enforcement have 
been making the case to have these doors on every aircraft.
    Last Congress, 60 Members of the House and 10 Senators 
joined our effort, understanding that the mandate of the 9/11 
Commission to protect the cockpit will only be realized when 
every passenger aircraft in the country is secured with these 
cost-effective barriers.
    Nearly one-third of the 38 cosponsors of my bill, H.R. 911, 
that adds secondary barriers to every single aircraft in the 
country, are members of the Armed Services Committee. My ask 
today, Mr. Chairman, is much more tailored.
    The NDAA is one way Congress can work to at least eliminate 
the glaring vulnerability of putting our troops at risk. We 
must guarantee that any aircraft that transports our brave men 
and women in uniform is never turned into a weapon and our 
troops into helpless victims.
    So here is how we can fix this. As you know, the Department 
of Defense, in partnership with the U.S. airline industry, 
operates the Civil Reserve Air Fleet. In exchange for the air 
carriers committing a limited number of aircraft to this 
program, the airlines receive the opportunity to do business 
with the Department of Defense.
    In fact, the GAO [Government Accountability Office] study 
shows that the airline industry has received over $30 billion 
in business since 2001 through that program. Only about 350 
aircraft would be affected by this requirement, but those are 
the 350 aircraft that transports some of our most precious 
cargo, our troops.
    I appreciate the opportunity to address the committee.
    I would like to recognize that my constituent, Ellen 
Saracini, who is the widow of United Airlines Flight 175 pilot 
Victor Saracini, is here today.
    Victor's flight was highjacked by Al Qaeda terrorists on 
September 11 and flown into the World Trade Center just after 9 
o'clock in the morning. Victor was a naval aviator, a veteran 
of the United States Navy.
    So with Victor in mind, the 3,000 victims of 9/11, and our 
troops today, I offer these remarks. I would be happy to answer 
any questions.
    [The prepared statement of Mr. Fitzpatrick can be found in 
the Appendix on page 52.]
    The Chairman. Thank you, sir. And I appreciate you bringing 
this issue to my attention, at least, because the secondary 
barriers is not something that I really had thought about or 
been aware of before.
    Any other questions for the gentleman?
    Thank you. Appreciate you being with us and appreciate you 
raising them.
    Mr. Fitzpatrick. Thank you, Chairman.
    The Chairman. Next we invite the gentleman from Florida, 
Mr. Curbelo, to provide testimony.
    The gentleman is recognized for 4 minutes.

STATEMENT OF HON. CARLOS CURBELO, A REPRESENTATIVE FROM FLORIDA

    Mr. Curbelo. Good morning, Mr. Chairman. And thank you very 
much for this opportunity. Good morning to all the members, 
especially a special greeting for my distinguished colleague 
from Florida, Mr. Nugent.
    I appreciate the opportunity to testify before you on the 
National Defense Authorization Act for fiscal year 2016. Like 
my colleagues, I would like to thank the chairman and the 
ranking member for their leadership on procurement reform and 
suggest an additional area that requires the committee's 
attention, in my opinion.
    Within Florida's 26th Congressional District--that is the 
southernmost district in the country--there are 649 companies 
registered as Federal contractors, including 448 small 
businesses.
    Those small businesses won over $61 million in Federal 
prime contracts last year out of the $440 billion spent on 
Federal contracts. That is why I believe that those 448 
companies and the 289,000 small contractors nationwide could be 
doing more if we only took subcontracting more seriously.
    Subcontracting is incredibly important for small 
businesses. Any large business receiving a contract for more 
than $650,000 must tell the Federal Government how it will use 
small businesses as subcontractors. This ensures that we have a 
healthy industrial base at all levels.
    Additionally, since about 80 percent of the Federal 
contracts are awarded to large businesses, this is where the 
money is. In fiscal year 2013, small businesses received $86.7 
billion in subcontracts, which is just about $5 billion less 
than they received in prime contracts.
    As part of the fiscal year 2013 NDAA, this committee 
enacted legislation to hold agency officials accountable for 
small-business utilization. Specifically, when agencies were 
considering whether senior agency executives deserved bonuses, 
it required that the agencies consider whether the contracting 
goals were being met and the role of said executives in meeting 
those goals.
    Even though the importance of subcontracting was again 
acknowledged by this committee as part of the fiscal year 2014 
NDAA when it included language drafted by Congressman Graves to 
count lower-tier subcontractors towards subcontracting goals, 
agencies are disregarding congressional intent. When agencies 
implemented the fiscal year 2013 language on goaling, they took 
the term ``goals'' to mean prime contract goals, ignoring the 
role of subcontracting.
    As a consequence, prime contracting dollars have increased, 
but the percentage of subcontract dollars awarded to small 
businesses has been falling and is down 2.5 percent since 2010.
    Likewise, agencies have not even started implementing the 
fiscal year 2014 language. This means fewer small suppliers, 
manufacturers, and innovators. Subcontracting is an important 
entry point for new Federal contractors. So if we have fewer 
subcontractors today, we will have fewer prime contractors 
tomorrow.
    For these reasons, I introduce H.R. 1386, the Small 
Entrepreneur Subcontracting Opportunities Act of 2015, or the 
SESO Act, with Mr. Chabot, Mr. Gibson and Mr. Bost. SESO 
requires that agencies look at subcontracting accomplishments 
as well as prime contracting accomplishments when evaluating 
performance of senior executives. SESO is included in H.R. 
1481, the Small Contractors Improve Competition Act of 2015, 
and passed committee on March 25th with bipartisan support.
    In Spanish, the word ``seso'' means ``brains.'' And I hope 
you will agree with me that including the SESO Act and other 
provisions in H.R. 1481 in the fiscal year 2016 NDAA is the 
smart thing to do.
    Thank you very much, Mr. Chairman. And I'd be happy to 
answer any questions.
    [The prepared statement of Mr. Curbelo can be found in the 
Appendix on page 81.]
    The Chairman. Thank you.
    Any member of the committee have questions?
    Thank you for being here and for bringing it to our 
attention.
    Next, the gentlelady from Michigan, Ms. Lawrence.
    Thanks for being with us this morning. The gentlelady is 
recognized for 4 minutes.

  STATEMENT OF HON. BRENDA L. LAWRENCE, A REPRESENTATIVE FROM 
                            MICHIGAN

    Mrs. Lawrence. Thank you, Mr. Chairman, for having me here 
this morning. I would like to thank all the members of the 
committee for allowing me this opportunity to speak on this 
important matter.
    Mr. Chairman, warfare is changing. We are in a time of 
fighting on multiple fronts using weapons we cannot have even 
imagined during the Vietnam era. Most of these weapons require 
knowledge of cyber warfare, the ability to use missiles and 
drones to fight from a distance.
    The fast-paced advance of technology is producing changes 
in the threats we face. How can we keep up? The answer is to be 
just as innovative with our human resources strategy as we are 
with our weapons and tactics.
    The Department of Defense has adopted new and powerful 
technologies that makes the military more effective and 
efficient. Despite the power and speed of these technologies, 
we still have some major cyber vulnerability.
    Whether through Internet-based attacks or malicious cyber 
hardware, we are the primary target of cyberattacks, 
jeopardizing or seriously impairing our military operations. We 
must do more to prevent enemies from using our cyber 
vulnerabilities against us.
    I believe we have to provide for private development of 
cybersecurity supply chain ratings and accreditation. While the 
Department of Defense is the most reliable government protector 
of the cyber supply chain, more work is required to be done.
    Our business community is ready to accept this challenge. 
In Michigan, we are ready to meet the challenge. We have supply 
chains that feed such large defense contracts. Our connection 
to the defense industry is a long and well-established one.
    Each part of the military has a need for defensive cyber 
capabilities, and many also have the need for offensive 
capabilities. U.S. Cyber Command is critical for ensuring 
leadership in a centralized command for cyber operations.
    While Cyber Command set a goal for 133 operational cyber 
teams by the end of 2016, as of February 2014 only 17 were 
fully operational. We need to properly support the development, 
training, and deployment of these teams.
    Implementing these policies together with expanding 
existing policies such as cyber information-sharing between the 
public and private sectors will better prepare the Department 
of Defense to face serious cybersecurity challenges.
    Finally, as you address cyber operations squadrons for Air 
National Guard, I would like to express my strong support for 
the 110th Attack Wing of the Michigan Air National Guard in 
Battle Creek, Michigan, to host a cyber squadron. Battle Creek 
Air National Guard Base's existing cyber missions mean that 
much of the infrastructure required for this new mission is 
already in place.
    Projections show that a cyber operation squadron at Battle 
Creek, Michigan, would save $2.2 million, compared to a 
location without such capabilities. Michigan's current 
workforce and universities provide a strong foundation for 
current and future recruiting efforts.
    Michigan has a network of highly skilled IT [information 
technology] professionals and qualified defense personnel. 
Michigan has 22 colleges and universities that offer degrees in 
cybersecurity, including 5 colleges that have earned the NSA 
[National Security Agency] Center of Excellence distinction.
    Cybersecurity is also a gender-neutral occupation, allowing 
both men and women to serve our country and protect our Nation 
as equals. I hope that we will continue to see this growing 
area of concern addressed through effective human resources and 
adequate funding for advanced technology.
    I am aware of how difficult the job is in these tough, 
complex times. You serve to address the needs of our military 
service members, their families, and their civilian 
counterparts at a time when we are facing security issues on 
multiple fronts. This is an awesome power and, as such, it 
comes with a high responsibility.
    As you consider national security provisions that focus on 
cyber warfare, I respectfully ask that you consider the great 
State of Michigan and its ability to support our national cyber 
missions.
    Thank you, Mr. Chairman. And I will take any questions.
    [The prepared statement of Mrs. Lawrence can be found in 
the Appendix on page 93.]
    The Chairman. I thank the gentlelady. Certainly cyber is 
one of the most important and most challenging issues we face 
anywhere in national security. And so I appreciate very much 
the gentlelady's comments.
    Are there any questions?
    Thank you. I appreciate you being with us today.
    Next we will go to the gentleman from Florida, Mr. Ross.
    Thanks for joining us. The gentleman is recognized for 4 
minutes.

STATEMENT OF HON. DENNIS A. ROSS, A REPRESENTATIVE FROM FLORIDA

    Mr. Ross. Thank you, Chairman Thornberry, members of the 
committee. It is a pleasure to be here today to speak regarding 
the fiscal year 2016 National Defense Authorization Act.
    This year I introduced House Resolution 1337, legislation 
to waive the time limits for the award of the Distinguished 
Service Cross to Edward Grady Halcomb for acts of extraordinary 
heroism during the Korean War. I want to offer my thanks to my 
good friend, Representative Nugent, and to the rest of the 
members of the committee for including this legislation in the 
fiscal year 2016 NDAA.
    The Distinguished Service Cross is the second highest 
military decoration that can be awarded to a member of the 
United States Army, and for years my staff has worked with 
long-time Mulberry, Florida, resident Grady Halcomb, who 
proudly served during the Korean War, to be awarded a 
Distinguished Service Cross.
    Recently I received confirmation from the Secretary of the 
Army, John McHugh, who personally affirmed that Grady Halcomb 
should be awarded with the Distinguished Service Cross for his 
valor in the service. However, there is a time limitation in 
the U.S. Code currently preventing this award from being 
presented to Mr. Halcomb.
    To address this, I introduced legislation to ensure this 
American hero will receive the award he earned in service to 
his country and his efforts to save the lives of fellow service 
members so many years ago.
    On July 27, 1950, Private Halcomb fought in the Battle of 
Anui as a member of Company B, 1st Battalion, 29th Infantry 
Regiment. This battle resulted in the worst single-unit 
American fatality rate of the Korean War, with only 24 of 235, 
which is 10.2 percent, of the soldiers surviving.
    Enemy forces captured Private Halcomb after he was wounded 
and most of his unit was killed. Now, Mr. Halcomb is a very 
humble and private man. His time as a POW [prisoner of war] was 
rather enduring, and what I want to just relate to you now is 
some of what he experienced, but it is greater than what we say 
here.
    After capture, Grady Halcomb endured a 150-mile march from 
Anui to Seoul with little food or water. In the Seoul prison, 
Private Halcomb assumed by his competence and inexplicable 
stamina the role of chief medic. At age 19, Grady Halcomb 
supervised 9 other medics and cared for up to 376 American 
prisoners.
    At great personal risk, Grady Halcomb exposed himself daily 
to disease and infections while depleting his own strength by 
virtually never leaving his patients' side for over a 2-month 
period in garrison or on the 120-mile death march from Seoul to 
Pyongyang.
    Although aware that sick soldiers were being routinely 
murdered by North Koreans, Grady Halcomb volunteered to remain 
in Seoul with the sick and wounded, who were separated from the 
main prisoner column marching to Pyongyang after the Inchon 
landing.
    When forced to leave Seoul to begin the death march, he 
rallied the feeble soldiers and escorted them until they caught 
up with the main POW column. Lastly, Private Halcomb then 
successfully helped plan and execute a daring escape with four 
other prisoners in Pyongyang despite the presence of 
overwhelming enemy forces.
    Awarding the Distinguished Service Cross to Edward Grady 
Halcomb is a long overdue honor for a man who risked his own 
health and safety as a POW during his times in Seoul, on the 
death march, and at the death camp in Pyongyang to care for and 
defend his fellow prisoners.
    I want to thank Secretary McHugh and his staff at the 
Pentagon and all of you here on the Armed Services Committee 
for working with my staff to include this important and needed 
provision in this year's NDAA. I thank you.
    And I yield back.
    [The prepared statement of Mr. Ross can be found in the 
Appendix on page 72.]
    The Chairman. Any questions?
    Mr. Nugent.
    Mr. Nugent. Mr. Chairman, thank you.
    I just want to thank Mr. Ross for bringing this forward. 
You know, these guys served, and they don't ask for much.
    Mr. Ross. It is amazing.
    Mr. Nugent. It really is. And for you to bring this 
forward--and I appreciate the chairman for allowing it to be in 
the chairman's mark. It is the right thing to do.
    Mr. Ross. I agree. And thank you.
    Mr. Nugent. And just for a time lapse, some things take a 
while to work out. And so I just really want to appreciate what 
you did for Mr. Halcomb, and I am sure he and his family would 
appreciate it, too. Thank you, sir.
    Mr. Ross. He definitely earned it. Thank you.
    Thank you, Chairman.
    The Chairman. Further questions?
    Definitely a remarkable story. Thank you.
    Thank you, Mr. Ross.
    The Chairman. Next the gentleman from Oregon, Mr. 
Blumenauer.
    I appreciate you being with us this morning. The gentleman 
is recognized for 4 minutes.

STATEMENT OF HON. EARL BLUMENAUER, A REPRESENTATIVE FROM OREGON

    Mr. Blumenauer. Thank you, Mr. Chairman. I appreciate the 
courtesy of the committee being able to share two points with 
you.
    One, I want to thank the committee for your tireless 
efforts on behalf of the foreign nationals who worked with us 
in the theater of Iraq and Afghanistan. It has been an honor 
working with your colleague, Ms. Gabbard, to be able to move 
this forward. It has been kind of a hairspring effort walking 
up to the cliff, but thanks to your leadership and others 
coming together in a bipartisan fashion, we have been able to 
increase the necessary number of visas. We have been able to 
accelerate the processing.
    But, in fact, we are being penalized a little bit because 
of our success. We are running out of visas, and we may have 
only 1,600 left. It is going to be soon exhausted. We 
desperately need provisions in your underlying bill to help us 
continue this progress. It is the least we can do for people 
who put their lives on the line for Americans and are now at 
risk because there are people with long memories who are 
settling scores. These are people who are shot, kidnapped. 
Their families are at risk. And we need to keep the supply of 
visas available to them. And I have more detail in my written 
testimony.
    But part of it is to thank you. Second is to keep this 
alive through your legislation, which will make it much, much 
easier to navigate the difficult legislative shoals that you 
have seen in the past.
    The other point I wanted to make dealt with investments in 
dealing with our nuclear arsenal. We are on a path to invest 
far more than is needed and, frankly, what the country can 
afford. A recent report from the nonpartisan CBO [Congressional 
Budget Office] estimates that the nuclear weapons planning 
currently in the pipeline calls for spending more than $350 
billion over the next decade, and there are estimates that 
suggest that it will far exceed a trillion dollars over the 
next 30 years to build a force that will be more than the 
administration and security experts have said is needed to 
effectively deter our nuclear threat.
    Former military officials have acknowledged that the plan 
is unaffordable. Former Vice Chairman of the Joint Chiefs of 
Staff, General James Cartwright, said the United States nuclear 
weapons modernization plans--the challenge here is we have to 
recapitalize all three legs of the nuclear triad. We don't have 
the money to do it. A recent defense panel report called these 
plans unaffordable and a threat to needed improvements in 
conventional forces. And I have more detail in my written 
testimony.
    But not only are they unaffordable, the scope is 
unnecessary. The Pentagon's 2013 report declared that we can 
ensure the security of the United States and our allies and 
partners and maintain a strong and credible strategic deterrent 
while safely pursuing up to a one-third reduction in deployed 
nuclear weapons from the level established in the New START 
[Strategic Arms Reduction Treaty] Treaties. Other experts, 
including a commission chaired by former General Cartwright, 
said that America could go even lower without jeopardizing 
security.
    Our nuclear weapons are not helping us with ISIS, with 
other challenges that we face. We have far more than we need to 
destroy any country on the planet. And the point is that it is 
eating into your ability to be able to deal with the myriad of 
other challenges that we face for our conventional forces that 
we do need.
    I have introduced legislation. We call it the Smarter 
Approach to Nuclear Expenditures, the SANE Act, a bill that 
would save the United States approximately $100 billion over 
the next 10 years by reducing or eliminating unnecessary 
nuclear weapons programs.
    As you consider the 2016 Defense Authorization, I hope 
there will be a hard look at what we really need and what we 
really can afford and the impact it is going to have on the 
other important things that you are challenged with balancing.
    I appreciate your courtesy in permitting me to speak today. 
I don't envy your hard work. And I hope you will consider these 
two suggestions.
    [The prepared statement of Mr. Blumenauer can be found in 
the Appendix on page 35.]
    The Chairman. Well, we definitely appreciate the input.
    Are there any questions?
    Thank you, sir. I appreciate you being here.
    Mr. Blumenauer. Thank you.
    The Chairman. Next we will turn to the gentleman from 
Texas, Mr. Gohmert.
    Thank you for being with us and sharing your testimony. The 
gentleman is recognized for 4 minutes.

  STATEMENT OF HON. LOUIE GOHMERT, A REPRESENTATIVE FROM TEXAS

    Mr. Gohmert. Thank you, Mr. Chairman. Thank you so much for 
being willing to hear testimony from others, and I appreciate 
the other members of the committee and the work you do.
    After the attack on our military at Fort Hood November of 
2009, we suffered another shooting here at a military 
installation at the naval yard followed by the Obama 
administration appearing to do nothing effective to prevent 
future or such attacks.
    Our military members are normally authorized to carry 
automatic weapons, fire RPGs [rocket-propelled grenades], drop 
bombs, shoot tanks and missiles that can kill dozens, thousands 
even, of people. Yet, the question remains why shouldn't they 
be able to carry a weapon on military installations here in the 
United States?
    Some commanders, I understand--I have talked to them--have 
an issue with some carrying weapons on military installations 
here in the U.S. Some have a problem with open carry on a 
military installation here in the U.S. Some have a problem with 
concealed carry, but would be okay with open carry.
    Others I have talked to, including a retired top general, 
said maybe the best way would be to have people on duty as duty 
officers or enlisted members who were carrying while they were 
on duty. Some have said, ``Look, even overseas we have some 
that we don't allow to carry weapons overseas.'' Fine. Check 
them out.
    But it seems like there ought to be a process put in place 
just like some States, like Texas has, where you could apply 
for a carry permit. Make it open, make it concealed, depending 
on what the Army felt was the best needs at that installation.
    But, at a minimum, we should at least have military members 
in addition to MPs [military police] who are authorized to 
carry weapons. And perhaps you could designate like we do in 
most States if you are an off-duty or on-duty law officer, MP, 
CID [criminal investigation division], or even intelligence or 
maybe you are field grade or above or E-8 or above, whatever 
the military felt was appropriate--but allow some people around 
a military installation to carry a weapon on or off duty.
    There was an article by Arthur Bird in The Wall Street 
Journal sometime back that said the people that instigate these 
events by firing and killing people want to conclude their 
attack themselves; so, if they are afraid someone is going to 
shoot them and stop them, they won't instigate the attack.
    And the best news we could ever get is that, because 
something you put in the NDAA was there, we never had another 
shooting. There was nothing else to report.
    So I would ask that the committee please consider this 
issue in the NDAA. I just know we have got military members 
killed twice, and to prevent our military members trained with 
weapons from defending themselves on their own military 
installation really should be unconscionable.
    On another note very quickly, I visit with so many friends 
in different services of the military, including visiting with 
some in the past 2 weeks, including visiting with some at Fort 
Hood last Friday during the Purple Heart presentation, who 
question how unfair it is for Christians to be told and 
Christian chaplains who have said they have been told, ``You 
cannot pray in Jesus' name.'' Jesus said, ``If you ask for it 
in my name, then it will be given.''
    So it is a prohibited act to prohibit somebody from 
practicing their religion. And I know we give up many of our 
rights when we go into the military. I didn't have freedom of 
assembly or freedom of speech at Fort Benning.
    One other matter. At Fort Hood--I know that this committee 
is concerned about it. Secretary McHugh says he is working on 
it. But to see these members that got the Purple Heart and 
know, as one said, ``It is like a slap. Here is the medal, but 
you really don't deserve it. So you are not getting 
benefits''--I hope the committee will address that.
    I will be glad to answer any questions.
    [The prepared statement of Mr. Gohmert can be found in the 
Appendix on page 49.]
    The Chairman. I thank the gentleman for raising three 
important issues.
    Are there any questions?
    Thank you. I appreciate you being here.
    Mr. Gohmert. Mr. Chairman, thank you very much.
    The Chairman. Thank you, sir.
    Now the gentlelady from North Carolina, Ms. Ellmers.
    Thank you for being with us this morning. The gentlelady is 
recognized for 4 minutes.

STATEMENT OF HON. RENEE L. ELLMERS, A REPRESENTATIVE FROM NORTH 
                            CAROLINA

    Mrs. Ellmers. Thank you, Mr. Chairman. I appreciate the 
ability to come and testify before you in the House Armed 
Services Committee.
    Mr. Chairman, I am the proud representative of the Second 
District of North Carolina, which is home to Fort Bragg. I 
would like to draw attention to an incredibly shortsighted 
decision the United States Air Force has made, which is 
deactivation of the 440th Air Lift Wing located at Pope Army 
Airfield at Fort Bragg.
    The 440th Air Lift Wing is the only C-130H model wing in 
the country that the Air Force is choosing to close completely, 
and this is occurring at the behest of the busiest airfield in 
the world for training requiring tactical air lift. The Air 
Force wishes to remove all organic air lifts from Pope Army 
Airfield and away from the 18th Airborne Corps and the 82nd 
Airborne Division Global Response Force as well as Army Special 
Forces groups.
    This is a decision that essentially takes the ``air'' out 
of ``airborne,'' as planes have been located at Pope since 
1954. The removal of the 440th Air Lift Wing at Pope Army 
Airfield not only lacks strategic merit, but it injects 
avoidable and unreasonable risks into the readiness of some of 
the most unique and rapid deployment forces our Nation's 
military has to offer. To say that this has been an oversight 
and is occurring and in regard to this decision a severe 
understatement.
    This ill-conceived proposal comes at a time when our Nation 
is facing growing uncertainty abroad and could require a 
military response that only forces at Fort Bragg can provide. 
This joint mission was formed over the last 8 years to provide 
the Airborne and the Special Forces with easily accessible and 
high-quality training so that they can carry out any mission 
they are asked without the risks of distance that is often 
created by bureaucratic, logistical, and operational delays.
    Eliminating the ability to rapidly mobilize, train, and 
deploy the local commanders, air crew, and aircraft that has 
established relationships with our most in-demand forces 
increases risk at an unacceptable rate.
    Now, the Air Force has repeatedly assured me that this will 
not impact military readiness, but the very client that the Air 
Force serves, the 18th Airborne Corps, disagrees. I have spoken 
with Lieutenant General Anderson, the commanding general at 
Fort Bragg, and there is a true feeling that this decision will 
impact his training abilities.
    I am pleased to say that my North Carolina colleagues have 
rallied around me in both the House and the Senate in a 
bipartisan manner in order to prevent the Air Force from making 
this poor decision. I brought this fight to the attention of 
former Secretary of Defense Chuck Hagel and currently Secretary 
Ash Carter.
    Just within the last month I have sat down with both North 
Carolina Senators and we met with Secretary of the Air Force, 
Deborah James, and Chief of Staff of the Air Force, General 
Welsh. It is my hope this committee sees the vital role that 
the 440th provides in maintaining the readiness and operational 
standards of the paratroopers and special forces stationed at 
Fort Bragg.
    Mr. Chairman, I respectfully request that you maintain the 
mission of the 440th Air Lift Wing and its C-130s. In 
conclusion, I believe it is more important than ever that the 
United States maintain the military superiority and continue to 
be the dominant force in freedom in the world.
    Thank you, Mr. Chairman. I look forward to working with the 
committee on any of the challenges facing our military, and I 
welcome any questions. And my staff and I are ready at any time 
to provide additional information. And any questions that you 
might have, I am happy to answer.
    [The prepared statement of Mrs. Ellmers can be found in the 
Appendix on page 54.]
    The Chairman. Great. Thank you.
    Well, I know we have worked with you and your office on 
this issue in the past, and we will certainly continue to do 
so.
    Are there any questions?
    Mr. Nugent. Mr. Chairman, just a comment from a father of a 
couple of guys--or one that was stationed at Fort Bragg for 6 
years.
    I want to tell you that military air lift capacity is huge. 
But the training capacity down at the Green Ramp, where the 
soldiers go down to get requalified or to do more jumps to stay 
qualified, is so important.
    What was the Air Force's--so how are they going to make up 
that lost capacity for the 82nd?
    Mrs. Ellmers. Well, the Air Force maintains that the 
military readiness will continue to be there and that the 
training will not be affected because they will be able to 
bring in C-130s from other areas. But, at the same time, we all 
understand that a schedule and weather and all these different 
things that can happen can interfere with that.
    So that provides the problem for our paratroopers and their 
training and their availability--their ability to be ready, 
their availability to complete the mission. I was there at Pope 
Airfield monitoring and watching some of their training 
missions, and that particular day one of the paratroopers 
actually died in the training exercise.
    And I understand, the Air Force understands, that this is 
very important as well, but at the same time I just believe 
that this operation itself is so crucial and it is so unique 
that it is hard for me to justify and see the need for them to 
dismantle it.
    Mr. Nugent. I just worry that--you know, we have had issues 
in regards to getting troops to Haiti when there was an 
earthquake down there. We had paratroopers sitting on the 
tarmac at the 17-hour mark and had to wait 2 days to catch a 
lift.
    And so I worry that, when you start degrading our capacity 
at that air base to provide that lift, it is going to worsen, 
not just 2 days. It is going to be a week before we get that 
capacity.
    And, with that, Mr. Chairman, I thank you for the 
additional time. I yield back.
    The Chairman. Thank the gentleman.
    I appreciate the gentlelady being with us and continuing to 
bring this issue to our attention.
    Mrs. Ellmers. Thank you, sir. And thank you to the 
committee.
    The Chairman. Thank you.
    Next we have the gentleman from Texas, Mr. Hurd.
    Thank you for being here this morning. The gentleman is 
recognized for 4 minutes.

    STATEMENT OF HON. WILL HURD, A REPRESENTATIVE FROM TEXAS

    Mr. Hurd. Thank you, Mr. Chairman. I appreciate you all 
letting me be here today and for having this opportunity.
    I was at Fort Bliss in El Paso, Texas, twice over the last 
2 weeks. I am proud to report that morale is high. They are 
excited to continue doing their mission, and they appreciate 
the support that this committee has given to them over the 
years, the largest facility in DOD's arsenal. And they are even 
more excited about, hopefully, the opportunity for the funding 
levels to be where they should be, and they are appreciative of 
the work that you and this committee have done.
    What I want to do today is talk about three quick points. 
One is Laughlin Air Force Base in Del Rio, Texas. Laughlin 
produces more pilots than any other facility in the Air Force's 
arsenal. And if it rains more than an inch, the entire flight 
deck is flooded and they have to stop operations.
    And they have proposals in place in order to fix this, 
correct this problem in stages, and I hope that this committee 
and the authorization process funds that to make sure that we 
are training as many pilots as we possibly can.
    The other thing I want to talk about is Joint Base San 
Antonio and the number of bases in San Antonio. San Antonio is 
becoming cyber city, U.S.A. We have the 24th Air Force, the 
25th Air Force. We have NSA Texas as well. And not being part 
of the National Capital Region, there is resources in San 
Antonio, and the continued support of the cyber operations in 
San Antonio is something that we are looking forward from this 
committee.
    And the last point is something I am hoping to work with 
this committee on as my role as the chairman of the Information 
Technology Subcommittee on Oversight and Government Reform. 
When a soldier, airman, or marine leaves DOD or they are 
medically discharged, they have to physically carry their 
records over to the VA [Department of Veterans Affairs] or to 
Social Security. It is 2015. That shouldn't happen, and it 
creates gaps in coverage oftentimes.
    And having 1.5 million veterans in my district, this is 
something that I think we can solve. And the technical 
solutions are the easy part. I think we need the political will 
to solve this not only for the folks currently serving this 
mission, but those who have left.
    So, with that, I want to thank you again for you all's 
support, pending any questions.
    [The prepared statement of Mr. Hurd can be found in the 
Appendix on page 87.]
    The Chairman. I thank the gentleman for raising all of 
those issues. It has been enormous frustration for this 
committee, the transition issues out of the military to the VA 
or to the other things and the technology delays that the 
organizations are having, and we will definitely stay on top of 
that.
    Are there questions for Mr. Hurd?
    Thank you. I appreciate you raising these important issues. 
And I believe that is all of our witnesses today. So, with 
that, this hearing stands adjourned.
    [Whereupon, at 11:19 a.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 14, 2015
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 14, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
       
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 14, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
    
                                [all]
</pre></body></html>
